         U.S. Department of Energy
         Office of Inspector General
         Office of Audits and Inspections




Inspection Report
Verification of Lawrence Berkeley
National Laboratory's Contract Workers'
Eligibility to Work in the U.S.




DOE/IG-0850                                 April 2011
                                  Department of Energy
                                    Washington, DC 20585
                                          April 15, 2011


MEMORANDUM FOR THE SECRETARY

FROM:                    Gregory H. Friedman
                         Inspector General

SUBJECT:                 INFORMATION: Inspection Report on "Verification of Lawrence
                         Berkeley National Laboratory's Contract Workers' Eligibility to Work
                         in the U.S."

BACKGROUND

The Department of Energy's Lawrence Berkeley National Laboratory (Berkeley) is a research
laboratory managed by the Department's Berkeley Site Office (Site Office). Berkeley, operated
under contract by the University of California, conducts unclassified research across a wide
range of scientific disciplines, employing approximately 4,200 scientists, engineers, support staff
and students. In addition to its Fiscal Year 2010 budget of approximately $707 million, Berkeley
received an additional $104 million in funding from the American Recovery and Reinvestment
Act of 2009 (Recovery Act). Much of this funding is being used in combination with
Department funds to complete infrastructure upgrades through the use of contractors and
subcontractors, resulting in temporary workers gaining access to the Berkeley site.

The Immigration Reform and Control Act of 1986 (the Act) makes it illegal for employers to
knowingly hire and continue to employ individuals who are not eligible to work (unauthorized
workers) in the United States (U.S.). To comply with the Act, employers must complete an
Employment Eligibility Verification Form (Form I-9) for each employee at the time of hiring.
Because of potential security concerns associated with unauthorized workers, we initiated this
inspection to determine whether contractors who were awarded contracts for infrastructure
upgrades at Berkeley, including their subcontractors, verified the employment eligibility of their
employees in accordance with Federal requirements prior to those employees accessing the site.

RESULTS OF INSPECTION

We found that not all of Berkeley's subcontractors ensured that individuals they employed to
work on the site were initially eligible or maintained authorization to work in the U.S.
throughout the term of their employment. Some contractors created required Form I-9s only
after we requested them, and others asserted that they had purged their employees' forms from
personnel files or had neglected to update and re-verify supporting documents (such as work
authorizations and visas). In addition, some contractors failed to record required key
employment eligibility elements. Based on our detailed review of 236 Form I-9s collected from
19 subcontractors that were involved in infrastructure upgrades at Berkeley, we discovered that:

        • Sixteen Form I-9s were missing or could not be produced;
                                                 2


    •   Fourteen were dated on or after our request for information indicating that the Form I-9s
        may not have been prepared prior to the employee arriving at Berkeley;

    •   Twenty-seven had supporting documents that were expired; that is, documents that had
        not been updated and re-verified as required to ensure continued employment eligibility;
        and,

    •   Thirty-two were missing required key employment eligibility elements, such as
        expiration dates for documents that establish identity and/or employment authorization,
        or required documentation such as a Social Security card, driver's license or permanent
        resident card.

Although available for voluntary use by all employers since 2007, we also found that none of the
19 Berkeley subcontractors included in our review used the U.S. Government's E-Verify system
to supplement the Form I-9 employee eligibility determination process. Use of the electronic
verification system did not become mandatory for Federal agencies and entities with government
sponsored Federal contracts until September 2009, when Executive Order 13465 (Economy and
Efficiency in Government Procurement through Compliance with Certain Immigration and
Nationality Act Provisions and Use of an Electronic Employment Eligibility Verification System)
was implemented. The E-Verify system serves to strengthen the Form I-9 process by allowing
employers to verify that the eligibility information employees provide is valid and/or that
documents presented are genuine. Even though Executive Order 13465 was implemented in
September 2009, none of the contracts we examined contained a requirement to use E-Verify. It
is important to note that the contracts in our review were issued prior to the implementation date;
however, Berkeley had not modified those contracts to incorporate the E-Verify requirement
even when its use became mandatory. While the Site Office ultimately modified Berkeley's
contract to require E-Verify use, it did not do so until a planned contract modification, some five
months after the Executive Order was issued.

Had E-Verify been voluntarily used, Berkeley's contractors likely would have identified a
number of other anomalies that we discovered during our testing. For example, we identified
eight Form I-9s containing duplicate Social Security numbers, the use of Social Security
numbers that belonged to deceased individuals, or the use of Social Security numbers that had
yet to be assigned. As we observed in our report on similar employment verification problems at
the Department's Y-12 facility in Oak Ridge, Tennessee, Environmental Cleanup Projects
Funded by the Recovery Act at the Y-12 National Security Complex (OAS-RA-L-11-02,
December 2010), the use of E-Verify is considered a highly useful tool. And, as pointed out by
the Department of Homeland Security, its utility is confirmed by the fact that about three percent
of the workers checked through the system cannot be confirmed as eligible for employment in
the U.S. We referred the possible misuse of Social Security numbers to officials with the Social
Security Administration and the Department of Homeland Security, U.S. Immigration and
Customs Enforcement, for appropriate action. We also informed Berkeley officials of this issue
during the course of our inspection.

These problems occurred, in part, because Berkeley contractors did not place sufficient emphasis
on ensuring that their employment verification activities complied with Federal law. In addition,
                                                 3


current Department policy does not require Department site security offices to verify, or even to
confirm on a sample basis, the employment eligibility of contract workers before site access is
allowed. As a consequence, unauthorized workers may have inappropriately gained access to
Federally-funded facilities and could have displaced U.S. citizens or other authorized workers
from jobs. While the displacement of legitimate workers may seem unlikely, the incidents
identified during the Berkeley inspection related to the use of questionable Social Security
numbers make this a real concern. If so, it would have undermined one of the primary objectives
of the Recovery Act, namely to stimulate job creation for U.S. citizens and other eligible
workers.

As noted previously, and as more fully discussed in the reports listed in Appendix 1, we
identified concerns with regard to employment verification at another Department site where
some contractor employees were allowed access to work areas without proper and/or complete
verification of eligibility. Also, the U.S. Government Accountability Office has issued reports
concerning employment verification problems within the Federal system.

To address the conditions described in this report, we made recommendations to the Site Office.
These recommendations were designed to improve verification of employment eligibility at
Berkeley while ensuring that contract workers currently on-site have the required Form I-9s on
file and that employment eligibility information has been verified by the employers through the
E-Verify system.

Also, considering the weaknesses identified during this inspection and the results of the prior
reviews, we recommended that the Department, on a corporate basis: (i) determine whether
similar problems exist at other facilities within its complex; and, (ii) ensure that appropriate
corrective actions consistent with existing Federal guidelines are promptly adopted.

MANAGEMENT REACTION

The Department and the Berkeley Site Office concurred with the findings and recommendations
contained in our inspection. Specifically, the Berkeley Site Office stated that it had either
completed or had ongoing actions to: (1) incorporate the employment verification clause into
contracts requiring applicable subcontractors to furnish documentation verifying that they and
their eligible lower-tier subcontractors have enrolled in the E-Verify system; (2) incorporate
performance measures related to employment verification; and, (3) integrate a new element in
the labor compliance software program which requires subcontractors entering payroll to check a
box for each employee validating that a Form I-9 is on file for that employee.

The Department stated that it had ongoing actions to coordinate with the Chief Health, Safety
and Security Officer, Office of Health, Safety and Security to determine whether problems
identified in our inspection exist throughout the Department's complex and to take appropriate
corrective actions to ensure appropriate compliance with applicable federal statutes and
regulations.

The Department and the Berkeley Site office actions are responsive to our recommendations.
                                               4


Attachment

cc: Deputy Secretary
    Associate Deputy Secretary
    Under Secretary for Science
    Chief of Staff
    Director, Office of Science
    Director, Office of Management
    Chief Health, Safety and Security Officer, Office of Health, Safety and Security
    Manager, Berkeley Site Office
REPORT ON VERIFICATION OF LAWRENCE BERKELEY NATIONAL
LABORATORY'S CONTRACT WORKERS' ELIGIBILITY TO WORK IN
THE U.S.___________________________________________________


TABLE OF
CONTENTS


Contract Worker Eligibility

Details of Finding                                            1

Recommendations                                               6

Management and Inspector Comments                             7


Appendices

1.   Prior Reports                                            8

2.   Objective, Scope and Methodology                         9

3.   Management Comments                                  10
VERIFICATION OF LAWRENCE BERKELEY NATIONAL
LABORATORY'S CONTRACT WORKERS' ELIGIBILITY TO WORK IN
THE U.S.____________________________________________________

EMPLOYMENT              The Immigration Reform and Control Act of 1986 (the Act)
VERIFICATION            requires that employers complete an Employment Eligibility
                        Verification Form (Form I-9) for each employee at the time of
                        hiring. In addition, the employers must examine and record
                        specific evidence of identity and employment authorization, such
                        as a driver's license, Social Security card or a passport provided by
                        the employee. After examining the supporting documents,
                        employers must attest that the individual is authorized to work in
                        the United States (U.S.). If the supporting documents have
                        expiration dates, employers must update and re-verify their
                        employees' Form I-9 on or before the expiration date.

                        Not all of Lawrence Berkeley National Laboratory's (Berkeley)
                        subcontractors ensured that individuals they employed to work on
                        the site were initially eligible or maintained authorization to work
                        in the U.S. throughout the term of their employment. For example,
                        we found that certain contractors were only able to provide
                        required Form I-9s that were completed after we requested them.
                        Others did not maintain completed verification forms as required
                        and told us that they purged them from their employees' personnel
                        files. We also observed that others neglected to update and re-
                        verify supporting documents (such as, work authorizations and
                        visas). In addition, while some contractors actually created the
                        Form I-9s as required, they failed to document required key
                        employment eligibility elements.

                        Based on our detailed review of 236 Form I-9s collected from 19
                        subcontractors who were involved in infrastructure upgrades at
                        Berkeley, we discovered that:

                           •   Fourteen were dated on or after our request for information
                               and sixteen were missing or could not be produced;

                           •   Twenty-seven had supporting documents that were expired;
                               that is, documents that had not been updated and re-verified
                               as required to ensure continued employment eligibility;
                               and,

                           •   Thirty-two were missing required key employment
                               eligibility elements, such as expiration dates for documents
                               that establish identity and/or employment authorization, or
                               required documentation such as a Social Security card,
                               driver's license or permanent resident card.
______________________________________________________________________________
Page 1                                                        Details of Finding
____________________________________________________________

                        The following discussion provides the details of the weaknesses
                        identified.

                                              Missing Form I-9s

                        Of the 236 Form I-9s we received from the 19 subcontractors, 14
                        were dated on or after our request for information. We noted that
                        Section 1, Employee Information and Verification, of Form I-9
                        must be completed no later than the time of hire and that the
                        employer is responsible for ensuring that the Form is timely and
                        properly completed. When we requested Form I-9s that were
                        completed prior to our request for employees who had already
                        gained access to Berkeley, we were told by one subcontractor that
                        the older forms could not be located while another subcontractor
                        stated that the forms were "buried" in employee files in various
                        locations and would be difficult to locate.

                        In addition, of the Form I-9s we requested from the 19
                        subcontractors, 16 were missing. One subcontractor indicated it
                        could not locate 13 forms, while the second subcontractor stated
                        that it had purged all employee files over a decade ago, thus it did
                        not have the forms for 3 of its employees who were hired prior to
                        the file destruction even though the individuals were still
                        employed. The Form I-9 instruction requires that employers retain
                        completed forms for 3 years after the date of hire or 1 year after the
                        date employment ends, whichever is later. For example, if an
                        employee retires after 15 years of employment, the Form I-9 must
                        be retained for the 15 years, plus 1 year after the employment ends,
                        for a total of 16 years.

                                  Updating and Re-verification of Form I-9s

                        Our testing revealed that 27 Form I-9s had expired supporting
                        documents; that is, required documents were not updated and re-
                        verified to ensure continued employment eligibility. Specifically,
                        of the 236 Form I-9s we received from the subcontractors, 27 had
                        expired documentation, such as a permanent resident card, which
                        establishes identity and employment authorization. In the case of
                        one subcontractor who had 25 employees working at Berkeley, 7
                        of 25 Form I-9s listed documents that had expired. Another
                        subcontractor provided 10 Form I-9s, six of which listed
                        documents that had expired. We noted that Section 3, Updating
                        and Reverification, of the Form I-9 requires employers to record


______________________________________________________________________________
Page 2                                                        Details of Finding
____________________________________________________________

                        updated and re-verified information for employees whose
                        authorization documents have expiration dates. The Form I-9 also
                        states that "Employers must reverify employment authorization of
                        their employees on or before the work authorization expiration
                        date recorded in Section 1 (if any)." Of the seven subcontractors
                        we contacted, four were able to provide us with updated and re-
                        verified employment eligibility documents after we notified them
                        of the issue. However, two subcontractors were not able to obtain
                        the documents for all of their employees. For example, one
                        subcontractor informed us that it could not provide updated
                        information for some of its employees because the employees no
                        longer worked for the subcontractor. Another subcontractor never
                        responded to our questions and requests for updated and re-verified
                        documents.

                        When questioned regarding the expired documents, a subcontractor
                        stated that it knew it should have updated the forms. A different
                        subcontractor indicated it just did not update the information as it
                        should have.

                                             Incomplete Form I-9s

                        Required key employment eligibility elements were missing from
                        32 Form I-9s, including expiration dates for documents that
                        establish identity and/or employment authorization, or required
                        documentation such as a Social Security card, driver's license or
                        permanent resident card. Specifically:

                           •   Eighteen had no evidence of identity and/or employment
                               authorization documents, such as a Social Security card;

                           •   Eight had no expiration dates as required for documents
                               that establish identity and/or employment authorization;
                               and,

                           •   Six did not identify whether the employee was a citizen of
                               the U.S., a noncitizen national of the U.S., a lawful
                               permanent resident of the U.S., or an alien authorized to
                               work in the U.S.

                        The Immigration Reform and Control Act of 1986, through the use
                        of Form I-9, requires the employee to present one or more
                        documents (depending on the type of documentation presented) to


______________________________________________________________________________
Page 3                                                        Details of Finding
____________________________________________________________

                        establish identity and employment authorization, and that the
                        employer must review the document(s) and record the title,
                        number, and expiration date, if any. The employer must then sign
                        and date the Form I-9. By signing the Form I-9, the employer
                        attests, under penalty of perjury, that the employer has
                        "…examined the document(s) presented by the above-named
                        employee, that the above-listed document(s) appear to be genuine
                        and to relate to the employee named…and that to the best of my
                        [the employer's] knowledge the employee is authorized to work in
                        the United States."

                        Although Form I-9s had missing key elements and the employer
                        did not record the document(s) establishing identity and
                        employment authorization, the employer still signed attesting that
                        the listed documents appeared to be genuine and that the employee
                        was authorized to work in the U.S. However, without the required
                        documents and the key employment eligibility elements, it is
                        unclear what basis was used by the employers to attest to the fact
                        that the employee was authorized to work in the U.S.

                                            E-Verify System

                        Although available for voluntary use by all employers since 2007,
                        we also discovered that none of the 19 Berkeley subcontractors we
                        reviewed used the E-Verify system to supplement the Form I-9
                        employee eligibility determination process. Use of the electronic
                        verification system did not become mandatory for Federal agencies
                        and entities with Federal contracts until September 2009, when
                        Executive Order 13465 (Economy and Efficiency in Government
                        Procurement through Compliance with Certain Immigration and
                        Nationality Act Provisions and Use of an Electronic Employment
                        Eligibility Verification System) was implemented. The E-Verify
                        system serves to strengthen the Form I-9 process by allowing
                        employers to verify that the eligibility information employees
                        provide is valid and/or that documents presented are genuine.
                        Even though the Executive Order was implemented in September
                        2009, the contracts we examined did not contain a requirement to
                        use E-Verify because the contracts were issued prior to the
                        implementation date. Also, instead of instituting the E-Verify
                        requirement for contracts awarded on or after September 8, 2009,
                        Berkeley selected February 1, 2010, as the E-Verify
                        implementation date. Thus, only contracts awarded on or after
                        February 1, 2010, were required to participate in E-Verify. When
                        questioned regarding the 5 month gap, a Berkeley official stated

______________________________________________________________________________
Page 4                                                        Details of Finding
____________________________________________________________

                        that the February 1, 2010, date was selected based upon the
                        modification date of the prime contract between Berkeley and the
                        Berkeley Site Office, which was signed December 18, 2009. The
                        official said Berkeley had no plans to implement the E-Verify
                        requirements for contracts awarded and/or signed before
                        February 1, 2010. The official also stated that if a contract is
                        modified, expires, and/or renewed after February 1, 2010, then
                        Berkeley would implement the E-Verify requirement into the
                        contract.

                        Had E-Verify been voluntarily used, Berkeley's contractors likely
                        would have identified a number of other anomalies that we
                        discovered during our testing. For example, based on our review
                        of a judgmental sample of 40 Social Security numbers from the
                        incomplete and/or incorrect Form I-9s, we identified eight
                        Form I-9s containing duplicate Social Security numbers, the use of
                        Social Security numbers that belonged to deceased individuals or
                        the use of Social Security numbers that had yet to be assigned. As
                        we observed in our report on similar employment verification
                        problems at the Department of Energy's (Department) Y-12 facility
                        in Oak Ridge, Tennessee, Environmental Cleanup Projects Funded
                        by the Recovery Act at the Y-12 National Security Complex (OAS-
                        RA-L-11-02, December 2010), the use of E-Verify is considered a
                        highly useful tool, and as pointed out by the Department of
                        Homeland Security, about three percent of the workers checked
                        through the system cannot be confirmed as eligible for
                        employment in the U.S. We took action to refer the possible
                        misuse of Social Security numbers to officials with the Social
                        Security Administration's Office of Inspector General and the
                        Department of Homeland Security, U.S. Immigration and Customs
                        Enforcement, for appropriate action. We also provided Berkeley
                        officials with a draft of this report for review and comment.

CONTRIBUTING            The problems we identified in this report occurred, in part, because
FACTORS AND             Berkeley subcontractors did not place sufficient emphasis on
IMPACT                  ensuring that their employment verification activities complied
                        with Federal law. As a consequence, unauthorized workers may
                        have inappropriately gained access to Federally-funded facilities
                        and could have displaced U.S. citizens or other authorized workers
                        from jobs. Notably, about $29 million of the $65 million dedicated
                        to the contracts we reviewed were provided through the American




______________________________________________________________________________
Page 5                                                        Details of Finding
____________________________________________________________

                        Recovery and Reinvestment Act of 2009 (Recovery Act) where one
                        of the primary purposes of the Recovery Act was to stimulate the
                        economy and provide employment for citizens and other eligible
                        workers. Further, of the $29 million in Recovery Act funds, $2.7
                        million was received by subcontractors included in our review.

                        In addition, current Department policy does not require
                        Department site security offices to verify, or even to confirm on a
                        sample basis, the employment eligibility of contract workers
                        before site access is allowed. Considering the weaknesses
                        identified during this inspection and the results of the prior reviews
                        listed in Appendix 1, we believe that the Office of Management, in
                        coordination with the Office of Health, Safety and Security, should
                        determine whether similar problems exist at other facilities within
                        the Department's complex, and ensure that appropriate corrective
                        actions consistent with existing Federal guidelines are promptly
                        adopted.

RECOMMENDATIONS         As noted previously and as more fully discussed in the reports
                        listed in Appendix 1, the Office of Inspector General has identified
                        concerns with regard to employment verification at Department
                        sites where some contractor employees were allowed access to
                        work areas without proper and/or complete verification of
                        eligibility. In addition, the U.S. Government Accountability Office
                        has issued reports concerning employment verification problems
                        within the Federal system. To help address the problems we
                        identified at Berkeley, we recommend that the Manager, Berkeley
                        Site Office:

                           1. Direct Berkeley to establish a process, including internal
                              controls, to ensure that all contractors and subcontractors
                              follow applicable laws and regulations concerning
                              employment verifications;

                           2. Establish performance measures related to employment
                              verification by contractors and subcontractors at the
                              Berkeley site, and monitor as appropriate; and,

                           3. Ensure that contract workers currently on the Berkeley site
                              have the required Form I-9s on file and that employment
                              eligibility information has been verified by the employers
                              through the E-Verify system.

                        Considering the weaknesses identified during this inspection and
                        the results of the prior reviews listed in Appendix 1, we
______________________________________________________________________________
Page 6                                                       Recommendations
____________________________________________________________

                       recommend that the Director, Office of Management, in
                       coordination with the Chief Health, Safety and Security Officer,
                       Office of Health, Safety and Security:

                           1. Determine whether similar problems exist at other facilities
                              within the Department's complex; and,

                           2. Ensure that appropriate corrective actions consistent with
                              existing Federal guidelines are promptly adopted.

MANAGEMENT              The Department and the Berkeley Site Office concurred with the
AND INSPECTOR           findings and recommendations contained in our inspection.
COMMENTS                Specifically, the Berkeley Site Office stated that it had either
                        completed or had ongoing actions to: (1) incorporate the
                        employment verification clause into contracts requiring applicable
                        subcontractors to furnish documentation verifying that they and
                        their eligible lower-tier subcontractors have enrolled in the
                        E-Verify system; (2) incorporate performance measures related to
                        employment verification; and, (3) integrate a new element in the
                        labor compliance software program which requires subcontractors
                        entering payroll to check a box for each employee validating that a
                        Form I-9 is on file for that employee.

                       The Department stated that it had ongoing actions to coordinate
                       with the Chief Health, Safety and Security Officer, Office of
                       Health, Safety, and Security to determine whether problems
                       identified in our inspection exist throughout the Department's
                       complex and to take appropriate corrective actions to ensure
                       appropriate compliance with applicable federal statues and
                       regulations.

                        We consider management's comments and corrective actions
                        planned and/or taken responsive to our recommendations.

                        Management's comments are included in their entirety in
                        Appendix 3.




______________________________________________________________________________
Page 7                                               Management and Inspector
                                                     Comments
Appendix 1__________________________________________________

                                       PRIOR REPORTS

The following Department of Energy (DOE) Office of Inspector General (OIG) reports are
related to employment verification:

    •   Environmental Cleanup Projects Funded by the Recovery Act at the Y-12 National
        Security Complex (OAS-RA-L-11-02, December 2010). The report concluded that Y-12
        had not included the Employment Eligibility Verification clause in the Recovery Act
        subcontracts that were reviewed. Y-12's prime contract with the Department of Energy
        required the flow-down of the clause into all subcontracts with a value of more than
        $3,000 issued or modified after December 2009. However, Y-12 did not flow down the
        clause to its subcontractors until September 2010.

    •   Employment Verification at Savannah River Site (INS-O-10-01, November 2009). This
        report found that subcontractors at the Savannah River Site did not verify the
        employment status of their employees in accordance with Federal requirements.
        Specifically, subcontractors failed to utilize the Form I-9 to determine worker eligibility
        and some Form I-9s were missing key elements.

The following Government Accountability Office (GAO) reports are related to employment
verification:

    •   Federal Agencies Have Taken Steps to Improve E-Verify, but Significant Challenges
        Remain (GAO-11-146, December 2010). This report concluded that the Department of
        Homeland Security's U.S. Citizenship and Immigration Services (USCIS) has taken
        several steps to improve the accuracy of the E-Verify system. As a result, E-Verify can
        immediately confirm about 97.4 percent of almost 8.2 million newly hired employees in
        as work authorized during fiscal year 2009. However, challenges such as vulnerability
        to identity theft and employer fraud still remained.

    •   Improved Agency Coordination Needed for Social Security Card Enhancement Efforts
        (GAO-06-303, March 2006). The report found that the Social Security Administration's
        (SSA) slow action to form an interagency task force may have limited Social Security
        card enhancement efforts to protect against theft and counterfeiting. The report
        recommended that the SSA and the Department of Homeland Security work together to
        resolve Social Security card weaknesses in proving employment eligibility.

    •   Weaknesses Hinder Employment Verification and Worksite Enforcement Efforts (GAO-
        05-813, August 2005). This report found that the Department of Homeland Security had
        not established a target timeframe for completing the review of the Form I-9 process.
        The report also concluded that the Basic Pilot Program, a voluntary program through
        which participating employers electronically verify employees' work eligibility, had
        potential to help enhance the verification process and reduce document fraud. However,
        weaknesses in the program have impacted the program's success.


______________________________________________________________________________
Page 8                                                            Prior Reports
Appendix 2__________________________________________________

OBJECTIVE               The objective of this inspection was to determine if contractors,
                        including subcontractors, at the Lawrence Berkeley National
                        Laboratory (Berkeley) site verified the employment eligibility of
                        their employees in accordance with Federal requirements prior to
                        those employees accessing the site.

SCOPE AND               We conducted our inspection between February and October 2010.
METHODOLOGY             We interviewed Berkeley and Berkeley Site Office officials
                        regarding temporary labor and employment verification. As part
                        of this inspection, officials at Berkeley strongly supported our
                        efforts with the data collection from all levels of contractors.

                        In addition, we interviewed contractors and subcontractor officials.
                        As part of our inspection, we reviewed and analyzed Federal
                        policies, procedures, and records involving employment
                        verification. Documentation reviewed for this inspection included:

                           •   Form I-9, Employment Eligibility Verification, for 4 prime
                               contractors and 19 subcontractors working on infrastructure
                               projects;

                           •   A judgmental sample of 304 Form I-9s for temporary
                               workers who performed work at the Berkeley site from
                               Fiscal Year 2008 to June 2010;

                           •   FAR 52.222-54, Federal Acquisition, Regulation
                               Employment Eligibility Verification;

                           •   Executive Order 13465; and,

                           •   The Immigration Reform and Control Act of 1986.

                        This inspection was conducted in accordance with the Council of
                        the Inspectors General on Integrity and Efficiency Quality
                        Standards for Inspections issued by the President's Council on
                        Integrity and Efficiency.




______________________________________________________________________________
Page 9                                         Objective, Scope and Methodology
Appendix 3__________________________________________________




______________________________________________________________________________
Page 10                                                 Management Comments
Appendix 3 (continued)________________________________________




______________________________________________________________________________
Page 11                                                 Management Comments
Appendix 3 (continued)________________________________________




______________________________________________________________________________
Page 12                                                 Management Comments
                                                                    IG Report No. DOE/IG-0850

                           CUSTOMER RESPONSE FORM
The Office of Inspector General has a continuing interest in improving the usefulness of its
products. We wish to make our reports as responsive as possible to our customers' requirements,
and, therefore, ask that you consider sharing your thoughts with us. On the back of this form,
you may suggest improvements to enhance the effectiveness of future reports. Please include
answers to the following questions if they are applicable to you:

1. What additional background information about the selection, scheduling, scope, or
   procedures of the inspection would have been helpful to the reader in understanding this
   report?

2. What additional information related to findings and recommendations could have been
   included in the report to assist management in implementing corrective actions?

3. What format, stylistic, or organizational changes might have made this report's overall
   message more clear to the reader?

4. What additional actions could the Office of Inspector General have taken on the issues
   discussed in this report which would have been helpful?

5. Please include your name and telephone number so that we may contact you should we have
   any questions about your comments.


Name                                          Date

Telephone                                     Organization


When you have completed this form, you may telefax it to the Office of Inspector General at
(202) 586-0948, or you may mail it to:

                               Office of Inspector General (IG-1)
                                     Department of Energy
                                    Washington, DC 20585

                                  ATTN: Customer Relations

If you wish to discuss this report or your comments with a staff member of the Office of
Inspector General, please contact Felicia Jones at (202) 253-2162.
This page intentionally left blank.
The Office of Inspector General wants to make the distribution of its reports as customer friendly
and cost effective as possible. Therefore, this report will be available electronically through the
                                Internet at the following address:

              U.S. Department of Energy Office of Inspector General Home Page
                                  http://www.ig.energy.gov

  Your comments would be appreciated and can be provided on the Customer Response Form.
